No. 20-230
INTHE

hprtntt C!tnurt nf t}Jt lttttth ~ s
ROBERT JAMES KEACH, Estate Representative of
the Post-Effective Date Estate of Montreal, Maine,
and Atlantic Railway, Ltd.,
V.

Petitioner,

NEW BRUNSWICK SOUTHERN RAILWAY COMPANY
LIMITED and MAINE NORTHERN RAILWAY COMPANY,

Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I, Danielle Spinelli, a member of the
bar of this Court, certify that the accompanying Reply Brief for Petitioner contains
2,995 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.l(d).
Executed on October 27, 2020.

DANIELLE SPINELLI
WILMER CU'fLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Ave., NW

Washington, D.C. 20006
(202) 663-6000
danielle.spinelli@wilmerhale.com

